No. 20-5610

In the

ERIC J. BROWN
Petitioner
vs.
THE STATE OF LOUISIANA
Respondent
_________________
On Petition for a Writ of Certiorari to
The Louisiana Fifth Circuit Court of Appeal
__________________
REPLY BRIEF OF PETITIONER
__________________

Christopher Albert Aberle
Louisiana Appellate Project
P.O. Box 8583
Mandeville, LA 70470-8583
aberle@appellateproject.org
(985) 871-4084
Counsel of Record for Petitioner

Arguments in Reply
1.

This Court in Montgomery implied that a full resentencing proceeding as remedy to a
Miller violation does indeed disturb the finality of a state conviction.
The State of Louisiana argues that this Court’s reasoning in Montgomery “flatly precludes

the result Brown seeks,”1 but clearly the opposite is true. In Montgomery this Court noted:
Giving Miller retroactive effect, moreover, does not require States to relitigate
sentences . . . . A State may remedy a Miller violation by permitting juvenile
homicide offenders to be considered for parole, rather than by resentencing
them. . . . Extending parole eligibility to juvenile offenders does not impose an
onerous burden on the States, nor does it disturb the finality of state convictions.2
The Respondent interprets the last sentence of this quotation as holding that a Miller resentencing
does not affect finality. But taken in its proper context, the unmistakable import of this Court’s
statement is that resentencing under Miller, as opposed to enacting legislation automatically
extending parole eligibility, does indeed disturb the finality of the conviction.
Louisiana elected not to enact such legislation, and as a consequence, Brown was
indisputably resentenced following extensive relitigation of sentencing issues. At a pre-sentencing
hearing on the contested issue regarding the appropriate remedy for the Miller violation in this case,
the Respondent conceded that, “absolutely,” the court “needs to conduct a resentencing hearing.”3
At the conclusion of that hearing, the court, noting that “each case is different,” concluded that “a
resentencing hearing is appropriate” in order to determine whether to impose a term of years, a

1

Respondent’s Brief in Opposition (Opposition), at 6-7.

2

136 S. Ct. 718, 736 (2016) (emphasis added).

3

State Court Record, Transcript of June 20, 2016, at 20, 39.

-1-

sentence of life with parole eligibility, or a sentence of life without parole eligibility.4 Following
several more extensive pre-sentencing hearings, in which various sentencing issues were litigated,
the court did, in fact, conduct a full-blown sentencing hearing on July 2, 2018, at which seven
witnesses testified and evidence was offered, a proceeding that generating a 223-page transcript.5
Thereafter, at a hearing on October 11, 2018, the court reviewed the evidence, made findings
thereon, and announced its ruling:
The Court does hereby vacate the previous sentences handed down to Mr. Brown,
and the Court, as to Count 1, the crime of second degree murder, does order that Mr.
Brown serve a term of life in prison with benefit of parole. As to Count 2, the crime
of armed robbery, the Court does hereby sentence Mr. Brown consistently with his
previous sentence, to serve 30 years at hard labor . . . .6
In other words, the district court vacated Brown’s original sentence and thereafter imposed
a brand new sentence following a thorough adversarial evidentiary hearing, notwithstanding the
Respondent’s repeated reference to Brown’s original sentence as having been merely reformed or
modified.7 Plainly, Brown was resentenced, as that term is contemplated by this Court in
Montgomery as the onerous, finality-upsetting alternative to simply enacting a blanket extension of
parole eligibility to all defendants sentenced in violation of Miller.

4

Id. at 44, 47-49.

5

State Court Record, Transcript of July 2, 2018.

6

State Court Record, Transcript of October 11, 2018, at 10.

7

Opposition at 2, 11, 12.

-2-

2.

Granting relief to Brown is not inconsistent with this Court’s finality jurisprudence.
The Respondent contends that because other states took this Court’s advice by enacting

legislation that automatically grants parole eligibility to Miller defendants without the need for
resentencing, it would be unfair, contrary to the holdings in Griffith & Teague, to consider Brown’s
conviction as being not final while the convictions of Miller defendants in Connecticut, for example,
remain final.8 But the line drawn by Griffith & Teague between those who can and cannot obtain
the benefit of a new rule does not turn on notions of fairness to the defendant, whose ability to rely
on a new rule turns solely on the sheer happenstance of the date that his conviction became final.
Rather, the line drawn by those cases is concerned with fairness to the State, not the defendant,9 and
in this case, the State of Louisiana could have avoided upsetting the finality of the convictions of its
Miller defendants, but it chose not to do so.
As for the Respondent’s unsupported contention that a ruling in Brown’s favor would “throw
open the floodgates to numerous challenges by Montgomery claimholders [in] states across the
country,”10 it suffices to note that Miller is now eleven years old, yet the Respondent has not, and
cannot, point to a single case, in any state or federal jurisdiction outside of Louisiana, in which a
litigant has challenged the finality of this conviction based on a Miller resentencing. And in
Louisiana, aside from the instant case, there are, so far, only two such cases, both currently pending
in the Louisiana Supreme Court and both involving a Ramos claim.11
8

Id. at 8-9.

9

See Teague v. Lane, 489 U.S. 288, 308-10 (1989).

10

Opposition at 2, 10.

11

See State v. Sewell, 53,571 (La. App. 2 Cir. 11/18/20), ___ So. 3d ___, 2020 WL 6750359, writ of
certiorari filed, 20-K-1457 (La. 12/18/20); State v. Johnson, 19-969 (La. App. 1 Cir. 8/6/20), ___ So. 3d

-3-

3.

Resolving Brown’s claim would resolve conflicts among federal jurisdictions and
between federal and state jurisdictions.
The Respondent contends that “none of the lower state or federal cases that Brown cites

conflicts with the Louisiana Supreme Court’s [sic] decision below.”12 But the Respondent makes
this unsupported assertion without any mention of Miller v. Bell and Jordan v. Epps, federal district
court cases that Brown discussed in depth in his Petition, where he showed how these cases directly
conflict with the Louisiana appellate court’s decision below, just as they conflicted with the State
court decisions that gave rise to those habeas corpus decisions.13 Brown stands on his analysis of
those cases.
Brown likewise stands on his analysis identifying conflicting holdings and statements
between the First Federal Circuit on the one hand, and the Ninth Circuit and the Seventh Circuit (in
dicta) on the other.14 While it is true, as the Respondent notes, that the resentencing proceedings
in these cases were ordered through an extended direct appeal process rather than as relief on
collateral review,15 a ruling by this Court favorable to Brown would nonetheless answer the question
in dispute in those cases, that is, whether a defendant is entitled under Griffith to the benefit of new
rule decided after the original sentencing, if an appeal of a resentencing is still pending. Hence,
consideration of that conflict is not irrelevant to whether this Court should grant certiorari.

___, 2020 WL 4524745,writ of certiorari filed, 20-1052 (La. 8/27/20).
12

Opposition at 11.

13

Petition for Certiorari at 5-7.

14

See id. at 4-5, 8 (citing United States v. Pizarro, 772 F.3d 284 (1st Cir. 2014); Ramirez-Burgos v. United
States, 313 F.3d 23 (1st Cir. 2002); Gretzler v. Stewart, 112 F.3d 992 (9th Cir. 1997); United States v. Judge,
944 F.2d 523, 526 (9th Cir. 1991); Richardson v. Gramley, 998 F.2d 463, 466 (7th Cir. 1993)).
15

See Respondent’s Brief in Opposition at 11-12.

-4-

Conclusion
Mr. Brown’s case is not final. This Court should so declare.
Respectfully submitted,

/s/ Christopher Albert Aberle
Christopher Albert Aberle
Louisiana Appellate Project
P.O. Box 8583
Mandeville, LA 70470-8583
caaberle@gmail.com
(985) 871-4084
Attorney of Record for Petitioner
Eric J. Brown

-5-

